SIGAR                                 Special Inspector General for
                                       Afghanistan Reconstruction




                                                  SIGAR Financial Audit 13-6




     USDA’s Program to Help Advance the Revitalization of
     Afghanistan’s Agricultural Sector: Audit of Costs Incurred
     by Volunteers for Economic Growth Alliance




                                                              JULY
                                                             2013

SIGAR Financial Audit 13-6
July 3, 2013
The Honorable Tom Vilsack
Secretary of Agriculture
U.S. Department of Agriculture

Mr. Philip Karsting
Administrator, Foreign Agricultural Service
U.S. Department of Agriculture

This letter transmits the results of our audit of costs incurred by Volunteers for Economic Growth Alliance
(VEGA) under a USDA cooperative agreement, “Capacity Building and Change Management Program.” 1 The
audit covered the period November 24, 2010, through December 31, 2012, and was performed by Mayer
Hoffman McCann P.C. It covered $17,238,627 in expenditures. The purpose of the cooperative agreement was
to enhance the capability and effectiveness of the Afghan Ministry of Agriculture, Irrigation, and Livestock.
The specific objectives of this financial audit were to

    •    render an opinion on the fair presentation of VEGA’s Fund Accountability Statement; 2
    •    determine and report on whether VEGA has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in VEGA’s internal
         financial controls; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann’s audit results and found them to be in accordance with generally accepted government
auditing standards.
Mayer Hoffman McCann found that except for the possible effects of (1) not being able to review accounting
records for November and December 2012, totaling $2,647,577 in costs 3 and (2) questioning $720,501 in
unsupported4 costs, the Fund Accountability Statement presented fairly, in all material respects, revenues
received and costs incurred under the cooperative agreement. Mayer Hoffman McCann also identified two
unresolved observations from a prior pre-award survey that were not fully addressed. The audit firm reported
these two unresolved observations as instances of noncompliance and reported five internal control
deficiencies.




1 USDA cooperative agreement no. 58-3148-1-042.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs
incurred, and any remaining balance for a given award during a given period.
3 At the time of the audit, VEGA had not closed its accounting records for November and December 2012.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
See table 1 below.


               Table 1 - Summary of Questioned Costs
                                     Questioned Costs
                Category                                       Ineligible         Unsupported
                                           Total

                Personnel                  $74,381                                   $74,381

                Fringe                      26,754                                    26,754

                Travel                      34,785                                    34,785

                Supplies                     4,860                                     4,860

                Subcontracts                60,336                                    60,336

                Other direct costs         338,760                                   338,760

                Indirect costs             180,625                                   180,625

                Total                    $720,501                   $0             $720,501

Given the results of the audit, SIGAR recommends that USDA:
     1. Determine the allowability of and recover, as appropriate, $720,501 in questioned costs identified in
        the report.

     2. Advise Volunteers for Economic Growth Alliance to address the five internal control findings identified
        in the report.

     3. Advise Volunteers for Economic Growth Alliance to address the two compliance findings identified in
        the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(Audit Code F-010)




                                                        2
VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

       Financial Audit of Costs Incurred under
      Cooperative Agreement No. 58-3148-1-042

For the Period November 24, 2010 to December 31, 2012
                VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                          Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 58-3148-1-042

                  For the Period November 24, 2010 to December 31, 2012


                                      Table of Contents


                                                                          Page
Summary:
 Background                                                                1
 Objectives, Scope and Methodology                                         2
 Summary of Results                                                        4
 Review of Prior Findings and Recommendations                              7

Independent Auditor’s Report on Fund Accountability Statement              10

Fund Accountability Statement                                              13

Notes to Fund Accountability Statement                                     14

Independent Auditor’s Report on Internal Control                           20

Independent Auditor’s Report on Compliance                                 23

Findings and Responses                                                     25

Appendix A: VEGA Response to Findings                                      44
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                        For the Period November 24, 2010 to December 31, 2012


SUMMARY

Background

The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer Hoffman
McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under Cooperative Agreement No.
58-3148-1-042 (Agreement), between Volunteers for Economic Growth Alliance (VEGA) and the United
States Department of Agriculture (USDA) for the period November 24, 2010 to December 31, 2012.

Since 2002 the United States has invested over $1 billion to rebuild Afghanistan’s agricultural sector.
Specifically, the U.S Department of Agriculture (USDA) and U.S. Agency for International Development
(USAID) have provided over $77 million to help build the capacity of the Afghanistan Ministry of
Agriculture, Irrigation and Livestock (MAIL) to better serve Afghan farmers and promote private sector
development. According to the U.S. Embassy’s Agricultural Assistance Strategy for Afghanistan, USDA,
USAID, and the U.S. Department of Defense have responsibility for helping MAIL build its capacity to
deliver services to rural farmers and herders and promote private sector and farm associations. Currently,
the U.S. government is pursuing a policy of target, train and transition in Afghanistan and to that end, U.S.
and international donors have committed to channeling at least 50 percent of development assistance
through the Afghan government by 2012.

MAIL is expected to play a significant role in fulfilling this commitment. However, both USAID and the
Government Accountability Office have identified challenges in MAIL’s ability to manage its operations. To
assist MAIL’s capacity to manage donor funding for agricultural services and provide assistance to Afghan
farmers, USDA awarded a cooperative agreement to the Volunteers for Economic Growth Alliance
(VEGA). This award, made in November 2010, is intended to operate the 4-year $36 million Capacity
Building and Change Management Program (CBCMP). Since VEGA received the award, it has worked
with MAIL to streamline MAIL headquarters operations and initiate CBCMP programs in selected
provinces.

The award was made to VEGA, which subcontracted to the International Executive Service Corps (IESC)
to implement and monitor the program. The IESC serves as the lead implementer for the four-year
CBCMP with MAIL. IESC heads a team comprised of the International City/County Management
Association (ICMA), Land O'Lakes, Institute of International Education (IIE), and International Senior
Lawyers Project (ISLP).




                                                     1
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                       For the Period November 24, 2010 to December 31, 2012


SUMMARY

Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •    Internal Controls – Evaluate and obtain a sufficient understanding of VEGA’s internal controls
        related to the award; assess control risk; and identify and report on significant deficiencies
        including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether VEGA complied, in all material respects, with
        the award requirements and applicable laws and regulations; and identify and report on
        instances of material noncompliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether VEGA
        has taken adequate corrective action on prior external audit report recommendations or other
        external assessment recommendations.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS presents
        fairly, in all material respects, revenues received, costs incurred, items directly procured by the
        U.S. Government and fund balance for the period audited in conformity with the terms of the
        award and generally accepted accounting principles or other comprehensive basis of
        accounting.


Scope

The scope of this audit included all costs incurred during the period November 24, 2010 to December
31, 2012 under the Agreement.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held via conference call on December 17, 2012 with representatives of
VEGA, the International Executive Service Corps (IESC), SIGAR and USDA in attendance.



                                                     2
                      VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                       For the Period November 24, 2010 to December 31, 2012


SUMMARY

Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of VEGA and IESC;
   •   Reviewed awards and modifications to VEGA;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques.

Internal Control Related to the FAS

We reviewed VEGA’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.

Compliance with the Cooperative Agreement Requirements and Applicable Laws and Regulations

We reviewed the Agreement, modifications and any subawards and documented all compliance
requirements that could have a direct and material effect on the FAS. We assessed inherent and
control risk as to whether material noncompliance could occur. Based upon our risk assessment, we
designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We inquired of VEGA and IESC as to all prior audit reports, external evaluations and assessments, and
reviewed and evaluated the status of accompanying recommendations by reviewing evidence of any
corrective actions taken.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       Agreement, and reasonable.

Pre-Exit Conference

A pre-exit conference was held on March 1, 2013 with VEGA to discuss the status of the audit. A final
pending list consisting of items requiring follow-up and/or additional documentation from VEGA was
provided to VEGA along with a due date for submission.


                                                    3
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                       For the Period November 24, 2010 to December 31, 2012


SUMMARY

Exit Conference

An exit conference was held on March 14, 2013. Attendees included VEGA, IESC, SIGAR and USDA.
During the exit conference, we discussed the preliminary results of the audit and established a timeline
for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by VEGA under Agreement with USDA identified the following matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS based upon the
identification of $720,501 of questioned costs, which represents a material misstatement of the FAS.
The ultimate determination of whether the identified questioned costs are to be accepted or disallowed
rests with USDA. Additionally, there was a scope limitation surrounding the availability of records as
detailed in the following subsection of this report. This scope limitation is also included as part of the
qualified opinion.


Scope Limitation

We were unable to determine whether the costs claimed from November 1, 2012 through December
31, 2012 were reasonable, allowable and allocable to the Agreement in accordance with OMB Circular
A-122 as VEGA’s accounting records had not been closed for the financial transactions incurred during
this period and financial records were not readily available for testing during our audit fieldwork.
According to management and review of the Financial Status Report submitted for December 31, 2012,
total costs incurred from November 1, 2012 through December 31, 2012 was $2,647,577.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Agreement or applicable
laws and regulations. Unsupported costs are those costs for which no or inadequate supporting
documentation was provided for our review. A summary of questioned costs is as follows.

Ineligible Costs

Our audit identified no costs that were deemed to be ineligible.



                                                    4
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                         For the Period November 24, 2010 to December 31, 2012


SUMMARY

Unsupported Costs

   •   Hours reported by the Program Manager for 2012 were based upon estimates rather than actual
       hours worked. Additionally, timesheets were not consistently signed by the employees and
       approved by the supervisors. This resulted in personnel, fringe and indirect questioned costs of
       $107,032. See Finding 2013-1 in the Findings and Responses section of this report.

   •   Expenses incurred for travel, supplies, subcontracts, and other direct costs, were either
       unsupported, lacked management approval, lacked USDA approval, were not translated to
       English and/or were not competitively bid resulting in questioned costs, including indirect cost of
       $613,469. See Finding 2013-2 in the Findings and Responses section of this report.


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weakness

No material weaknesses were reported.

Significant Deficiency

The following significant deficiencies were reported:

       Finding                                                                      Auditee’s
       Number            Internal Control Finding – Significant Deficiency         Concurrence
       2013-1      VEGA reported hours worked based upon estimates, and             Disagree
                   timesheets were not consistently signed by employees and
                   approved by supervisors.

       2013-2      VEGA did not consistently follow procurement procedures          Disagree
                   related to travel, supplies, equipment, contractual and other


                                                    5
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                      For the Period November 24, 2010 to December 31, 2012


SUMMARY

      Finding                                                                    Auditee’s
      Number             Internal Control Finding – Significant Deficiency      Concurrence
                  direct costs.

      2013-3      The Accountant prepares the monthly bank reconciliation         Agree
                  for VEGA, receives the bank statements directly and also
                  has access to cash receipts and cash disbursements.
                  These are incompatible functions that are typically
                  segregated to avoid misappropriation of funds, and there is
                  no evidence of a supervisory review of the bank
                  reconciliation.

      2013-4      The inventory of capital assets in Afghanistan was not          Agree
                  reconciled to the general ledger. VEGA performed a
                  reconciliation for the purpose of this audit and noted that
                  $11,778 of capital assets had not been properly recorded
                  into the general ledger.

      2013-5      Out of the 8 subcontractors tested for excluded parties,        Agree
                  VEGA did not perform an excluded parties check for 3 of
                  the subcontractors. We reviewed the excluded parties list
                  for these 3 subcontractors and determined that they were
                  not on the list.


The complete management response from VEGA to each of the internal control findings can be found
in the Findings and Responses section of this report.

Deficiencies

No deficiencies were reported.

Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Cooperative Agreement and other
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of FAS. The results of our tests disclosed the following instances of non-compliance.




                                                   6
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                       For the Period November 24, 2010 to December 31, 2012


SUMMARY

       Finding                                                                     Auditee’s
       Number                         Compliance Finding                          Concurrence
       2013-6     Program and financial personnel from VEGA and IESC                Agree
                  made numerous trips to Afghanistan during the audit
                  period. Explanations for these trips were that they were
                  undertaken to monitor the subrecipients. However, these
                  trips were not supported by monitoring or status reports
                  that described the purpose of the trip and the benefit to the
                  Agreement.

       2013-7     VEGA included unallowable ballpark fees in its indirect cost     Disagree
                  pool in determining its indirect cost rate.



Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from previous
engagements that could have a material effect on the FAS. There were two prior engagements with
findings and recommendations that were included in the scope of our audit. In the Single Audit Report
for 2009, there was one finding for which adequate corrective action has been implemented and the
finding is considered resolved. In the United States Agency for International Development (USAID)
Pre-Award Survey, there were 4 observations identified. Of the 4 observations, 2 had corrective
actions which have been adequately implemented and 2 remain outstanding and have been included
as Findings 2013-6 and 2013-7 in the Findings and Responses section of this report. A summary of
these prior findings and recommendations is as follows:


Single Audit Reports

VEGA provided its Single Audit Reports for the years ended December 31, 2009, 2010 and 2011. One
finding was noted in its 2009 Single Audit Report. There were no findings in the 2010 and 2011 Single
Audit Reports.

   •   Improper Revenue Recognition

       Recommendation

       A reconciliation of grant revenues and receivables should be done on a monthly basis. The
       accounting records should be updated to reflect this reconciliation.




                                                   7
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                      For the Period November 24, 2010 to December 31, 2012


SUMMARY

       Status of Corrective Action

       VEGA is now reconciling grant revenues as required. The corrective action has been
       adequately implemented and this finding has been resolved.


USAID Pre-Award Survey

The USAID conducted a pre-award survey on VEGA in 2010.          The report indicated the following
observations, but had no recommendations.

   •   Unallowable Costs

       Condition

       It was noted that VEGA’s accounting system did not identify or segregate unallowable costs as
       required by 22 CFR 226.21(b)(6), Administration of Assistance Awards to U.S. Non-Government
       Organizations, standards for Financial Management Systems and 2 CFR 230, Cost Principles
       for Non-Profit Organizations. Additionally, VEGA did not have sufficient written policies and
       procedures for the handling and segregation of unallowable costs on U.S. Government grants.

       Status of Corrective Action

       In June 2010, VEGA changed its accounting software to SAGE MIP, which is capable of
       segregating unallowable costs per 22 CFR 226.21(b)(6) and updated their manual accordingly.
       We reviewed the system and the updated manual to ensure it has the capability of segregating
       unallowable costs. The corrective action has been adequately implemented and this finding has
       been resolved.

   •   Inadequate Funding Request Policies and Procedures

       Condition

       Although VEGA receives the majority of its funding through a letter of credit, there were no
       adequate written policies and procedures relating to funding requests and approvals.

       Status of Corrective Action

       We reviewed VEGA’s updated written policies and procedures, which incorporated the handling
       and approvals relating to letters of credit. The corrective action has been adequately
       implemented and this finding has been resolved.




                                                 8
                   VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                             Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 58-3148-1-042

                     For the Period November 24, 2010 to December 31, 2012


SUMMARY

  •   Subcontractor Monitoring

      Condition

      VEGA did not adequately monitor subrecipients of USAID funds for compliance with the 2 CFR
      230 cost principles or the implementation of the award. This included the evaluation of the
      detailed supporting documentation for subrecipient’s request for funds and unannounced site
      visits.

      Status of Corrective Action

      We interviewed VEGA staff regarding its procedure for reviewing funding requests and
      determined that site visits were performed of subrecipients. However, VEGA did not document
      the results of its monitoring site visits. See Finding 2013-6 in the Findings and Responses
      section of this report.

  •   No logical and Consistent Method of Allocating Indirect Costs

      Condition

      VEGA did not have a logical and consistent method of allocating indirect costs in accordance
      with 2 CFR 230 cost principles, Section (D), Allocation of Indirect Costs and Determination of
      Indirect Cost rates. As such, VEGA was requested to develop a cost rate structure with 2 CFR
      230 to include the methodology used to calculate the indirect cost rate and written policies and
      procedures for the identification and treatment of indirect costs in VEGA’s cost proposal.

      Status of Corrective Action

      VEGA stated that they now use the negotiated indirect cost rate calculation suggested by
      USAID. During our review of the indirect cost rate calculation, we noted that a ballpark fee tax
      was included in the calculation. This tax should have been excluded as VEGA is exempt from
      the tax. We performed a cursory review of the overhead calculation and noted no anomalies,
      although a review of the indirect cost rate was not included in the scope of our audit. See
      Finding 2013-7 in the Findings and Responses section of this report.




                                                 9
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036



                             INDEPENDENT AUDITOR’S REPORT
                           ON FUND ACCOUNTABILITY STATEMENT


Report on the Fund Accountability Statement

We have audited the accompanying Fund Accountability Statement of Volunteers for Economic
Growth Alliance (VEGA) under Cooperative Agreement No. 58-3148-1-042 (Agreement) with
the United States Department of Agriculture (USDA) for the period November 24, 2010 through
December 31, 2012, and the related notes to the Fund Accountability Statement.


Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of the Fund Accountability
Statement in accordance with the methods of preparation described in Note 2; this includes the
design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements (including the Fund Accountability Statement) that are free
from material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Except as it relates to continuing education and peer review requirements as discussed in the
following paragraph. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the Fund Accountability Statement is free from material
misstatement.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years . We subcontracted a


                                              10
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036

portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of conducting
interviews of local staff hired by VEGA and observing the existence of inventory. Our
subcontractor was not involved in the planning, directing or reporting aspects of the audit. Our
subcontractor did not meet the continuing professional education requirements or peer review
requirements as outlined in Government Auditing Standards, as the firm is located and licensed
outside of the United States of America. The results of the audit were not affected as we
directed the procedures performed and reviewed the work completed by our subcontractor.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Fund Accountability Statement. The procedures selected depend on the
auditor’s judgment, including the assessment of the risks of material misstatement of the Fund
Accountability Statement, whether due to fraud or error. In making those risk assessments, the
auditor considers internal control relevant to the entity’s preparation and fair presentation of the
Fund Accountability Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the Fund Accountability Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.


Basis for Qualified Opinion

VEGA had not closed its accounting records for the months of November 2012 and December
2012 at the time of our audit and all transactions incurred during these months were not
available for audit. According to management and our review of the Financial Status Report
submitted for December 31, 2012, total costs incurred from November 1, 2012 through
December 31, 2012 were $2,647,577. However, due to a lack of records available for audit, we
were unable to determine whether any adjustments to these amounts were necessary.

We also identified several transactions totaling $720,501 that were questionable based upon
our review of the underlying support for the specified transactions. The ultimate determination
of whether the identified questioned costs are to be accepted or disallowed rests with USDA.


Qualified Opinion

In our opinion, except for the possible effects of the matters described in the Basis for Qualified
Opinion paragraphs, the Fund Accountability Statement referred to above presents fairly, in all
material respects, the respective revenue received and costs incurred by VEGA under the
Agreement for the period November 24, 2010 through December 31, 2012 in accordance with
the basis of accounting described in Note 2.




                                                11
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036

Basis of Accounting

We draw attention to Note 2 of the Fund Accountability Statement, which describes the basis of
accounting that is used in its preparation. As described in Note 2 to the Fund Accountability
Statement, the Fund Accountability Statement is prepared in accordance with methods of
preparation that are prescribed or permitted by USDA, which is a basis of accounting other than
accounting principles generally accepted in the United States of America, to meet the
requirements of USDA. Our opinion is not modified with respect to this matter.


Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated
June 14, 2013 on our consideration of VEGA's internal control over financial reporting and on
our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering VEGA’s internal control over financial reporting and
compliance.


Restriction on Use

Our report is intended solely for the information and use of Volunteers for Economic Growth
Alliance, United States Department of Agriculture, and the Special Inspector General for
Afghanistan Reconstruction and is not intended to be and should not be used by anyone other
these specified parties. Financial information in this report may be privileged. The restriction of
18 USC 1905 should be considered before any information is released to the public.




Irvine, California
June 14, 2013




                                                12
                   VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                               Notes to Fund Accountability Statement

                     For the Period November 24, 2010 to December 31, 2012


(1)   Status and Operation

      The Volunteers for Economic Growth Alliance (VEGA), a non-profit corporation, was
      incorporated under the special laws of the District of Columbia in 2003. VEGA is organized for
      the not-for-profit purpose of soliciting certain grant funds from the U.S. Department of
      Agriculture (USDA) and facilitating access to those funds by its members in order to engage its
      members to provide services, including the provision of volunteers, being sought by USDA, and
      for the purpose of engaging in all activities and transactions that are necessary in furtherance of
      that purpose.

      VEGA was awarded $36 million under Cooperative Agreement No. 58-3148-1-042 (Agreement)
      with USDA’s Foreign Agricultural Service in November 2010 to implement a program to help
      advance the revitalization of Afghanistan's agricultural sector. This program was to take a
      multifaceted approach to recommending modernizing ministry operations, enhancing the
      capability and effectiveness of the Ministry of Agriculture, Irrigation and Livestock (MAIL), and
      establishing a grants management unit to achieve the MAIL’s goal of directly receiving and
      managing international donor funds. Ultimately, this program was to reach and assist farmers
      throughout Afghanistan. The period of performance of the Agreement runs through November
      22, 2014.

      The main subcontractor under this Agreement is International Executive Service Corps (IESC),
      who is also a member of VEGA, and serves as the lead implementer for the four-year Capacity
      Building and Change Management Program with MAIL. IESC heads a team comprised of the
      International City/County Management Association (ICMA), Land O'Lakes, Institute of
      International Education (IIE), and International Senior Lawyers Project (ISLP).


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement has been prepared in accordance with methods of
             preparation that are prescribed or permitted by USDA. Under these methods of
             preparation, revenues are reported when received. This practice differs in some
             respects from generally accepted accounting principles which provide for revenues to be
             reported when earned. The costs in the schedule are reported when incurred.

      (b)    Foreign Currency Conversion Method

             VEGA converts its expenses that were paid in local currency (Afghanis) into reporting
             currency (U.S. Dollar) by applying an average monthly rate based upon the bank rates
             used to transfer funds between U.S. dollar account and Afghanis account.



                                                  14
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                               Notes to Fund Accountability Statement

                                             (Continued)


(2)   Summary of Significant Accounting Policies (Continued)

      (c)      Questioned Costs

               There are two categories of questioned costs, ineligible and unsupported. Ineligible
               costs are those costs that are deemed to not be allowable in accordance with the terms
               of the Agreement or applicable laws and regulations. Unsupported costs are those costs
               for which no or inadequate supporting documentation was provided for our review.


(3)   Revenues

      As of December 31, 2012, VEGA has received $20,403,876 in payments from USDA under the
      Agreement.


(4)   Personnel

      VEGA reported personnel costs in the amount of $3,984,462 for the period November 24, 2010
      through December 31, 2012. One of the Program Managers recorded their time for 2012 based
      upon estimates instead of actual hours worked. Although the employee did actually work during
      2012, actual hours worked were not available for audit. Total estimated salary for time charged
      during 2012 was $10,607. Additionally, in 2010 and 2011, we noted that 1 timesheet was not
      signed by the employee and 29 timesheets were missing the supervisor’s approval. In 2012, we
      noted that all timesheets were not signed or approved by a supervisor and the employee’s
      signature was pre-scanned onto the timesheet. Total unsupported salary for time charged was
      $63,774. Total questioned personnel costs were $74,381. See Finding 2013-1 in the Findings
      and Responses section of this report. Also, see Notes 5 and 10 for details of the associated
      fringe and indirect costs, respectively.


(5)   Fringe

      VEGA reported fringe costs in the amount of $598,948 for the period November 24, 2010
      through December 31, 2012, which represents approximately 15% of personnel costs. The
      fringe costs associated with the estimated time reported by the Program Manager in 2012 was
      $5,797, and the unsupported time due to missing approvals or employee signatures on
      timesheets was $20,957. Total unsupported fringe costs are $26,754. See Note 4 for details
      related to the associated personnel costs and Note 10 for details related to the associated
      indirect costs. See Finding 2013-1 in the Findings and Responses section of this report.




                                                 15
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                                 Notes to Fund Accountability Statement

                                                 (Continued)


(6)   Travel

      VEGA reported travel costs in the amount of $620,099 for the period November 24, 2010
      through December 31, 2012. Unsupported travel costs consisted of the following. See Finding
      2013-2 in the Findings and Responses section of this report.

                                                                  Number      Questioned
                                    Condition                     of Errors      Cost
               Lack of management approval                             5       $33,010
               Missing original vendor invoice                         2         1,559
               Invoice was less than amount charged                   3            216

                Total questioned costs related to travel             10       $34,785


(7)   Supplies

      VEGA reported supplies costs in the amount of $577,346 for the period November 24, 2010
      through December 31, 2012. Unsupported supplies costs consisted of the following. See
      Finding 2013-2 in the Findings and Responses section of this report.

                                                                  Number      Questioned
                                    Condition                     of Errors     Cost
               Lack of management approval                             2       $ 167
               Lacked management approval and invoice not
                translated to English                                 2           220
               Lacked proper procurement process                      5         4,473

                Total questioned costs related to supplies            9        $4,860


(8)   Subcontracts

      VEGA reported subcontract costs in the amount of $4,170,822 for the period November 24,
      2010 through December 31, 2012. Unsupported subcontract costs consisted of the following.
      See Finding 2013-2 in the Findings and Responses section of this report.

                                                                  Number      Questioned
                                    Condition                     of Errors     Cost
               Lacked management approval                              4       $12,750
               Invoice was mathematically incorrect                    1        21,218
               Not competitively procured                             5         26,368

                Total questioned costs related to subcontracts       10        $60,336



                                                      16
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                                 Notes to Fund Accountability Statement

                                                 (Continued)


(9)    Other Direct Costs

       VEGA reported other direct costs in the amount of $2,782,836 for the period November 24,
       2010 through December 31, 2012. Unsupported other direct costs consisted of the following.
       See Finding 2013-2 in the Findings and Responses section of this report.

                                                                          Number      Questioned
                                    Condition                             of Errors      Cost
         Lack of management approval                                          48       $155,652
         Lack of management approval and incorrect amount charged              1          2,613
         Lack of management and USDA approval                                  1          1,660
         Lack of management approval and inadequate translations               9          4,761
         Lack of management approval, USDA approval and incorrect
           amount charged                                                     1            168
         Lack of USDA approval                                                1          2,304
         Lack of USDA approval and incorrect currency conversion              1          1,655
         Invoice was less than amount charged                                 1            260
         Lack proper procurement process                                      7        110,205
         Lack proper procurement process and management approval              3         16,614
         Invoice was mathematically incorrect and missing currency
           conversion rates                                                   3            900
         Inadequate translations                                             17          8,979
         Missing vendor invoice                                               6         28,386
         Missing original invoice                                             2          3,903
         Cost not compliant with the agreement                                1            700

           Total questioned costs related to other direct costs             102       $338,760


(10)   Indirect Costs

       VEGA reported indirect costs in the amount of $4,090,794 for the period November 24, 2010
       through December 31, 2012. The negotiated indirect cost rate for VEGA was 15.35%.
       However, VEGA agreed to limit the rate to 5.85% from November 24, 2010 through December
       31, 2010, and 5.83% from January 1, 2011 through December 31, 2012. During our review of
       the indirect cost calculation for the year ended December 31, 2011, we noted that VEGA added
       back a refund received in the amount of $46,400 for payment of a ballpark fee in 2009 and
       2010. The fee was assessed on VEGA’s gross receipts generated within the District of
       Columbia. The proceeds of the fee were to be used for the construction of a major league
       baseball stadium in Washington, D.C. The indirect costs rates for 2011 and prior are finalized
       rates. As such, the ballpark fee refund should be included in the calendar year 2012 indirect
       cost pool as a reduction of the total indirect costs. See Finding 2013-7 in the Findings and
       Responses section of this report.




                                                      17
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                               Notes to Fund Accountability Statement

                                               (Continued)


(10)   Indirect Costs (Continued)

       The indirect costs also include the indirect cost charged by the prime subcontractor for the
       program, IESC. IESC charged an average indirect cost rate of 34.00% for the period November
       24, 2010 through December 31, 2010, 35.05% for the period January 1, 2011 through
       December 31, 2011, and 36.02% for the period January 1, 2012 through December 31, 2012.
       These rates are less than their negotiated rates of 89.09%, 40.86% and 31.77% (provisional) for
       the same periods. Since IESC charged rates less than the maximum allowable, we used the
       rates actually charged in determining the questioned indirect costs associated with the
       questioned costs in other cost categories.

       Since costs were questioned in other cost categories, an adjustment for associated indirect
       costs is required. We used the final indirect cost rate for VEGA for 2010 and 2011, and the
       provisional rate for 2012, in calculating the allowable indirect costs. We used the indirect cost
       rate claimed by IESC for the entire audit period, which was less than the negotiated indirect cost
       rate, in calculating the allowable indirect costs. The appropriate rate for each year was applied
       to the individual costs questioned. A summary of associated questioned indirect costs by cost
       category is as follows:

                                                                             Associated
                                                          Questioned         Questioned
                         Cost Category                       Cost           Indirect Cost
           Personnel                                       $ 74,381          $ 4,337
           Fringe                                            26,754              1,560
           Travel                                            34,785             14,506
           Supplies                                           4,860              2,004
           Subcontractors                                    60,336             25,034
           Other direct costs                               338,760           133,184

             Total questioned indirect costs                                 $180,625


(11)   Reconciliations

       As of October 31, 2012, which is the last month that VEGA had closed its books, a reconciliation
       of outstanding fund balance was as follows:

           Available funds per bank                 $423,867
           Available funds per books                 415,550

             Excess funds                           $ 8,317




                                                   18
                   VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                 Financial Audit of Costs Incurred under
                                Cooperative Agreement No. 58-3148-1-042

                                 Notes to Fund Accountability Statement

                                              (Continued)


(11)   Reconciliations (Continued)

       The excess funds are due to a timing difference as VEGA maintains its books on the accrual
       basis of accounting. This excess balance increased to $517,672 as of December 31, 2012,
       using the unaudited expenses for the months of November and December 2012.


(12)   Unaudited Costs for November and December 2012

       VEGA’s accounting records for the period November 1, 2012 through December 31, 2012 were
       not closed at the time of the audit and all transactions incurred during this time were not
       available for our review. According to management and review of the Financial Status Report
       submitted for December 31, 2012, total costs incurred from November 1, 2012 through
       December 31, 2012 were $2,647,577.


(13)   Subsequent Event

       On February 5, 2013, VEGA returned $17,360 to USDA for overbillings of personnel, fringe and
       indirect costs associated with the Program Manager estimating her time spent on the program
       instead of charging actual hours worked. The returned funds were as follows:

                                                       Funds Returned
                        Cost Category                     to USDA
             Personnel                                     $10,607
             Fringe                                          5,797
             Indirect (5.83%)                                  956

               Total funds returned to USDA               $17,360




                                                  19
          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditor’s Report


Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of the Volunteers for Economic Growth Alliance (VEGA) representing
revenues received and costs incurred under Cooperative Agreement No. 58-3148-1-042 with
the U.S. Department of Agriculture for the period November 24, 2010 through December 31,
2012, and the related Notes to the Fund Accountability Statement, and have issued our report
thereon dated June 14, 2013, except as it relates to continuing education and peer review
requirements as discussed in the following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years . We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of conducting
interviews of local staff hired by VEGA and observing the existence of inventory. Our
subcontractor was not involved in the planning, directing or reporting aspects of the audit. Our
subcontractor did not meet the continuing professional education requirements or peer review
requirements as outlined in Government Auditing Standards, as the firm is located and licensed
outside of the United States of America. The results of the audit were not affected as we
directed the procedures performed and reviewed the work completed by our subcontractor.




                                               20
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036

Internal Control over Financial Reporting

In planning and performing our audit of the Fund Accountability Statement, we considered
VEGA's internal control over financial reporting (internal control) to determine the audit
procedures that were appropriate in the circumstances for the purpose of expressing our
opinion on the Fund Accountability Statement, but not for the purpose of expressing an opinion
on the effectiveness of VEGA’s internal control. Accordingly, we do not express an opinion on
the effectiveness of VEGA’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph
of this section and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. Given these limitations, during our
audit we did not identify any deficiencies in internal control that we consider to be material
weaknesses. However, material weaknesses may exist that have not been identified. We did
identify certain deficiencies in internal control, described in the accompanying Findings and
Responses as items 2013-1, 2013-2, 2013-3, 2013-4, and 2013-5 that we consider to be
significant deficiencies.


VEGA’s Response to Findings

VEGA’s response to the findings identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix A. VEGA’s response was not
subjected to the auditing procedures applied in the audit of the Fund Accountability Statement
and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of the VEGA’s
internal control. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the entity’s internal control. Accordingly, this
communication is not suitable for any other purpose. This report is intended for the information
of Volunteers for Economic Growth Alliance, United States Department of Agriculture, and the
Special Inspector General for Afghanistan Reconstruction. Financial information in this report
may be privileged. The restrictions of 18 USC 1905 should be considered before any
information is released to the public.



                                                21
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036




Irvine, California
June 14, 2013




                                          22
                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditor’s Report


Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of the Volunteers for Economic Growth Alliance (VEGA) representing
revenues received and costs incurred under Cooperative Agreement No. 58-3148-1-042 with
the U.S. Department of Agriculture for the period November 24, 2010 through December 31,
2012, and the related Notes to the Fund Accountability Statement, and have issued our report
thereon dated June 14, 2013, except as it relates to continuing education and peer review
requirements as discussed in the following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years . We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of conducting
interviews of local staff hired by VEGA and observing the existence of inventory. Our
subcontractor was not involved in the planning, directing or reporting aspects of the audit. Our
subcontractor did not meet the continuing professional education requirements or peer review
requirements as outlined in Government Auditing Standards, as the firm is located and licensed
outside of the United States of America. The results of the audit were not affected as we
directed the procedures performed and reviewed the work completed by our subcontractor.




                                               23
Board of Directors
Volunteers for Economic Growth Alliance
1726 M Street, NW, Suite 800
Washington, DC 20036

Compliance and Other Matters

As part of obtaining reasonable assurance about whether VEGA's Fund Accountability
Statement is free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and the aforementioned cooperative agreement, noncompliance
with which could have a direct and material effect on the determination of financial statement
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests disclosed instances of noncompliance or other matters that are required to be reported
under Government Auditing Standards and which are described in the accompanying Findings
and Responses as items 2013-6 and 2013-7.


VEGA’s Response to Findings

VEGA’s response to the finding identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. VEGA’s response was not subjected to
the auditing procedures applied in the audit of the Fund Accountability Statement and,
accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s internal control. Accordingly, this communication is not suitable for any other purpose.
This report is intended for the information of Volunteers for Economic Growth Alliance, United
States Department of Agriculture, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
June 14, 2013




                                                24
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                        Findings and Responses

                       For the Period November 24, 2010 to December 31, 2012


2013-1: Estimates of Hours Worked and Timekeeping Weaknesses

Condition:
During our review of the personnel and fringe cost categories, we noted the following unsupported
items.

   •   VEGA had identified that one of the Volunteers for Economic Growth’s (VEGA’s) Program
       Managers recorded their time for 2012 based upon estimates instead of actual hours worked.
       Although the employee did actually work during 2012, actual hours worked were not available
       for audit. Total estimated time charged during 2012 was $17,360, which consisted of salary in
       the amount of $10,607, fringe benefits in the amount of $5,797 and associated indirect costs in
       the amount of $956. Once identified, VEGA refunded this amount to the Agreement on
       February 6, 2013.

   •   During our testing of payroll, we noted the following:

           o    In 2010 and 2011, we noted that 1 timesheet was not signed by the employee and 29
                timesheets were missing the supervisor’s approval.

           o    In 2012, we noted that all timesheets were not signed or approved by a supervisor and
                the employee’s signature was pre-scanned onto the timesheet.

        Total payroll-related costs questioned due to missing approvals and/or signatures during 2010
        through 2012 was $89,672, which consisted of salary, fringe benefits and associated indirect
        cost.

Total questioned personnel costs, including associated fringe benefits and indirect costs, were
$107,032 ($17,360 plus $89,672). These questioned costs, by cost category, by year, are as follows:

                                      Fringe         Indirect
            Year         Salary      Benefits         Costs       Total
            2010        $ 6,545      $ 1,940         $ 496       $ 8,981
            2011          3,472        1,370            282         5,124
            2012         64,364       23,444          5,119        92,927

        Total           $74,381      $26,754         $5,897      $107,032


Cause:
For 2012, the Program Manager consistently charged about 40% of her time to the Agreement in order
to utilize the budget. In addition, the employees mistakenly thought that timesheet review and approval
are only required by the finance department instead of their immediate supervisor.



                                                   25
                      VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                 Financial Audit of Costs Incurred under
                                Cooperative Agreement No. 58-3148-1-042

                                         Findings and Responses

                                                (Continued)


2013-1: Estimates of Hours Worked and Timekeeping Weaknesses (Continued)

Criteria:
OMB Circular A-122, Attachment B, Paragraph 8, Compensation for personal service, states, in part:

         “…m. Support of salaries and wages.

         (1) Charges to awards for salaries and wages, whether treated as direct costs or
         indirect costs, will be based on documented payrolls approved by a responsible
         official(s) of the organization…

         (2) Reports reflecting the distribution of activity of each employee must be maintained
         for all staff members…

         (a) The reports must reflect an after-the-fact determination of the actual activity of each
         employee. Budget estimates (i.e., estimates determined before the services are
         performed) do not qualify as support for charges to awards…”

Additionally, VEGA’s Employees’ Policy and Procedure Manual, Human Resources Policies, Part D.
Labor Distribution Reporting, states, in part:

         “…All Staff are required to fill out bi-weekly time sheets which are formal attendance and
         payroll record. At the close of a semi-monthly pay period, each employee must sign a
         hard copy of his/her time report attesting to its accuracy. S/he should submit the report
         to the CFO for the processing of the payroll. Each hard copy of a time report must be
         signed by the Executive Director….”


Effect:
Requesting reimbursement for labor costs based upon budget estimates is not in accordance with OMB
A-122, and lack of approvals and signatures on timesheets can result in inaccurate or misused payroll
costs. Total questioned payroll, fringe and related indirect costs is $107,032, of which $17,360 was
already refunded to USDA subsequent to the audit period.


Recommendation:
   (1) We recommend that VEGA either return $89,672 to USDA ($107,032 total questioned costs
       less $17,360 returned to USDA subsequent to the audit period) for the questionable payroll
       costs or provide USDA with adequate supporting documentation.

   (2)    We recommend that VEGA reinforce its timekeeping policies to ensure that all time charged to
          the Agreement is based upon actual hours worked.



                                                     26
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                             (Continued)


2013-1: Estimates of Hours Worked and Timekeeping Weaknesses (Continued)

Management Response:
VEGA does not concur with this recommendation. VEGA believes that the audit report is in error when
it states that “The Program Manager consistently charged about 40% of her time to the Agreement in
order to utilize the budget. In addition, the employees state that they were not aware of the timesheet
signing and approvals requirements.” Only for calendar year 2012 did the Program Manager, as
instructed by the former VEGA CFO, bill her time based on a budgeted percentage rather than her
actual time allocation.

All employees were aware of the timesheet signing requirements per VEGA employee Policy Manual,
but were mistaken in thinking that the Finance Department was obtaining the necessary approvals.
However, the Director for Finance and Administration who was appointed in January 2013 has
implemented a more rigorous system that requires the employee to submit their timesheet directly to
the supervisor for approval and subsequent submission to finance for review, approval and processing.

Furthermore, VEGA stated that the condition of the finding which indicates that actual hours worked
were not available for audit, was incorrect since VEGA provided an analysis to USDA on February 6,
2013 with a detailed accounting of the Program Manager’s actual work hours (as reconstituted by the
employee).


Rebuttal to Management Response:
We acknowledge the clarification provided by VEGA and have revised the cause in the finding to reflect
this clarification that the timekeeping practice of the Project Manager related to 2012 only, and that
VEGA had identified that the Program Manager charged time based on budget. We reviewed the
detailed analysis that was provided to USDA regarding the reconstruction of actual time worked and
noted that it consists of an email estimating the time that was actually worked on the program. Without
original evidence, we are unable to determine whether the testimonial evidence is accurate. Our
recommendation remains unchanged.




                                                  27
                      VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                 Financial Audit of Costs Incurred under
                                Cooperative Agreement No. 58-3148-1-042

                                           Findings and Responses

                                                   (Continued)


2013-2: Lack of Adherence to Procurement Procedures

Condition:
During our testing of travel, supplies, equipment, subcontracts and other direct costs, various
exceptions were noted regarding a lack of adherence to procurement procedures as follows. We tested
41 transactions totaling $935,425 incurred by VEGA, and 474 transactions totaling $6,407,877 incurred
by IESC and noted the following.

Questioned costs related to travel:

                                                                    Number      Questioned
                               Condition                            of Errors      Cost
    Lack of management approval                                          5       $33,010
    Invoice was mathematically incorrect                                 2         1,559
    Invoice was less than the amount charged                             3           216

      Total questioned costs related to travel                         10       $34,785


Questioned costs related to supplies:

                                                                    Number      Questioned
                               Condition                            of Errors      Cost
    Lack of management approval                                          2        $ 167
    Lacked management approval and inadequate translation                2           220
    Not competitively procured                                          5          4,473

      Total questioned costs related to supplies                        9        $4,860


Questioned costs related to subcontracts:

                                                                    Number      Questioned
                               Condition                            of Errors     Cost
    Lacked management approval                                           4       $12,750
    Invoice was mathematically incorrect                                 1        21,218
    Not competitively procured                                          5         26,368

      Total questioned costs related to subcontracts                   10        $60,336




                                                       28
                      VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                 Financial Audit of Costs Incurred under
                                Cooperative Agreement No. 58-3148-1-042

                                           Findings and Responses

                                                  (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

Questioned costs related to other direct costs:

                                                                    Number      Questioned
                              Condition                             of Errors      Cost
    Lack of management approval                                        48        $155,652
    Lack of management approval and incorrect amount charged            1           2,613
    Lack of management and USDA approval                                 1          1,660
    Lack of management approval and inadequate translations             9           4,761
    Lack of management approval, USDA approval and incorrect
      amount charged                                                    1            168
    Lack of USDA approval                                               1          2,304
    Lack of USDA approval and incorrect currency conversion             1          1,655
    Invoice was less than amount charged                                1            260
    Lack proper procurement process                                     7        110,205
    Lack proper procurement process and management                      3         16,614
      approval
    Invoice was mathematically incorrect and missing currency
      conversion rates                                                  3             900
    Inadequate translations                                            17           8,979
    Missing vendor invoice                                              6          28,386
    Missing original invoice                                            2           3,903
    Cost not compliant with the agreement t                             1             700

      Total questioned costs related to other direct costs           102        $338,760


Cause:
This condition occurred due to a lack of adequate management oversight.


Criteria:
OMB Circular A-122, Attachment A, Paragraph A, Basic Considerations, states, in part:

       “2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto under these
       principles.

       b. Conform to any limitations or exclusions set forth in these principles or in the award
       as to types or amount of cost items.




                                                       29
                   VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                             Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 58-3148-1-042

                                    Findings and Responses

                                             (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

      “c. Be consistent with policies and procedures that apply uniformly to both federally-
      financed and other activities of the organization.

      d. Be accorded consistent treatment.

      e. Be determined in accordance with generally accepted accounting principles (GAAP).

      f. Not be included as a cost or used to meet cost sharing or matching requirements of
      any other federally-financed program in either the current or a prior period.

      g. Be adequately documented....”

Additionally, Cooperative Agreement No. 58-3148-1-042, Attachment A, Section EE, Procurement of
Goods and Services, states in part:

      “VEGA may use its own procurement policies and practices for the procurement of
      goods and services under this agreement, provided they conform to the applicable
      Federal requirements and regulations…”


Effect:
Lack of adherence to procurement procedures can result in unallowable costs charged to the
Agreement. Total questioned costs, including associated indirect costs, are as follows:

                                                       Associated       Total
                                   Questioned          Questioned     Questioned
            Cost Category            Cost             Indirect Cost     Costs
      Travel                       $ 34,785             $ 14,506      $ 49,291
      Supplies                        4,860                 2,004        6,864
      Subcontracts                   60,336                25,034       85,370
      Other direct costs            338,760              133,184       471,944

       Total questioned costs       $438,741           $174,728        $613,469


Recommendation:
   (1) We recommend that VEGA either return $613,469 to USDA for expenses which were
       inadequately supported, lacked management approval, or did not follow procurement
       procedures, or provide adequate supporting documentation to USDA.




                                                 30
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                             (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

   (2)   We recommend that VEGA review its accounting and procurement system to ensure all
         accounting and procurement procedures are followed per the terms of the Agreement and
         related Federal regulations.


Management Response:
VEGA and IESC respectfully disagree with this recommendation. None of the questioned costs were
deemed unallowable. With the exception of two VEGA questioned costs totaling $680.51 (for incorrect
foreign exchange calculation and a missing invoice), the audit team was provided supporting
documentation and/or strong and justifiable circumstantial evidence to substantiate the reasonableness
of these expenses.

In the case of VEGA, all internal control weaknesses identified have been corrected and new process
implemented, including staff training, to ensure that program documentation is complete in the future.
VEGA has put into place a dual-checks and balance process to ensure that time sheets, invoices, travel
expenses, and other documents are processed with proper approvals and signature. All invoices and
other expense reports now need to be reviewed, approved, and signed by the supervisor of the
employee originating the expense. While previously these documents could be submitted directly by
employees to the accounting team for processing without dual-signatures and approvals, the
reorganization of VEGA’s team and delineation of the payment process ensure that dual-signatures will
be made on all documents. Where senior management approvals were missing for questioned costs in
the audit report, a careful review of all questioned costs was conducted and retroactive approvals were
made.

Throughout the course of the program, IESC followed its procurement procedures and has procured
goods and services that were necessary to fulfill the requirements of the approved work plan. IESC did
obtain quotes from businesses to provide the goods or services needed. IESC does acknowledge that
on some occasions, its senior manager in the field did not place their signature on the Expense Form
that IESC uses to summarize a transaction, even though policies were followed in the procurement of
the item.

The following represents a high level summary of the documentation previously provided. Refer to
Appendix A for a more detailed verbatim response from management.

   1. The expense form included the Chief of Party (COP) approval for the purchase of armed
      vehicles;

   2. The IESC travel policy does not require back up for individual travel expenses of $75;




                                                  31
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                              (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

   3. During the commencement of the start-up phase of the program when timing is essential, a staff
      member purchased a computer which was approved by her supervisors and the purchase was
      reasonable in price;

   4. Procurement was completed by field staff by obtaining 3 bids and selecting the lowest bid,
      which was approved by the COP;

   5. Marsh is IESC’s insurance broker and every year Marsh obtains competitive quotes from the
      market based on IESC’s insurance requirement;

   6. IESC was with International SOS, but switched to Frontier Medex in 2009 as international SOS
      was determined to be significantly more expensive than industry standards;

   7. The lease of armored vehicles was obtained through a competitive bidding process and
      approved by the United States Department of Agriculture (USDA) and the IESC COP;

   8. According to the lease agreement on the property, IESC withholds 15% of the annual portion
      and pays that to the Ministry of Taxation; and

   9. The name of the store was written in English on the top of the invoice, which included the word
      “paint” and the Vice President of Global Operations in the District of Columbia and the COP
      approved the purchase and expense forms, respectively.

All of the transactions are for expenses that were necessary to complete the approved work plan and
were allowable and allocable to the CBCMP program, and included in the CBCMP budget; and
therefore should be reimbursed. We believe that the recommendation that $612,122 be returned to
USDA is both unfair and unreasonable.


Rebuttal to Management Response:
The unsupported costs were questioned due to the fact that the documentation provided for our review
did not sufficiently support the costs incurred. As such, we have questioned these costs. It will be left
to the ultimate decision of USDA as to whether the costs should be disallowed. All expenses charged
to the Agreement should be adequately supported by an invoice, along with the necessary approvals at
the time of making the payment and recording the transaction in the books. Substantiating expenses
with circumstantial evidence or retroactive approvals evidences weak internal controls and is not in
accordance with OMB Circular A-122. The following are our rebuttals to each of the points raised
related to IESC’s costs.




                                                   32
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                      Findings and Responses

                                             (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

   1. The expense form provided for our review did not contain the COP approval for the purchase of
      armed vehicles;

   2. According to OMB Circular A-122 requirements as described in the criteria, the costs must be
      supported and the IESC travel policy of not requiring support for costs below $75 is in conflict;

   3. 3 quotes were not obtained for the purchase of the computer;

   4. Support for the 2 quotes which were not selected were not provided for our review;

   5. Marsh does obtain competitive quotes from the market based on IESC’s insurance requirement,
      but Marsh itself was not chosen through a competitive bidding process;

   6. No competitive bidding support was provided for the selection of Frontier Medex in 2009;

   7. As required by the CBCMP Field Finance and Procurement Procedures, the Afghanistan 101
      Expense Form did not have a requester’s signature;

   8. The amount recorded in the books did not agree to the payment schedule of the lease
      agreement; and

   9. Although the store name contained the word “paint” on the invoice, the details of the invoice did
      not have a clear audit trail to determine if the claimed amount was sufficiently supported by
      incurred cost.

Our recommendation remains unchanged.




                                                 33
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                        Findings and Responses

                                              (Continued)


2013-3: Lack of Segregation of Duties

Condition:
The Accountant prepares the monthly bank reconciliation for VEGA, receives the bank statements
directly and also has access to cash receipts and cash disbursements. These are incompatible
functions that are typically segregated to avoid misappropriation of funds and there is no evidence of a
supervisory review of the bank reconciliation.


Cause:
The accounting staff is small and all individuals have numerous responsibilities.


Criteria:
The Committee of Sponsoring Organizations of the Treadway Commission (COSO), Internal Control –
Integrated Framework, Chapter 4, Control Activities, states, in part:

         “…Segregation of Duties – Duties are divided, or segregated, among different people to
         reduce the risk of error or inappropriate actions…”


Effect:
Lack of a supervisory review of bank reconciliations that are prepared by an individual with
incompatible functions can result in an undetected loss or misuse of funds.


Recommendation:
   (1) We recommend that VEGA implement procedures to ensure that individuals responsible for
       accounting for funds not have direct access to or control over those same funds.

   (2)    We recommend that VEGA have the bank statements delivered directly to a supervisor for
          review prior to being given to the Accountant for preparation of the bank reconciliation, and
          have a supervisor review and approve the bank reconciliation after it has been prepared.




                                                   34
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                      Findings and Responses

                                             (Continued)


2013-3: Lack of Segregation of Duties (Continued)

Management Response:
Based on a thorough review of VEGA’s accounting processes by the new Managing Director for
Finance and Administration and the new Senior Accountant, a revised bank reconciliation process has
been established which clearly incorporates a separation of duties and proper internal controls. Under
this new process, the staff accountant no longer has access to the bank account. The bank statement
is printed by the Senior Accountant and the bank reconciliation cover sheet clearly delineates the
signature of the preparer, the approver, and finally the sign-off by the Managing Director for Finance
and Administration. This process is documented and is part of VEGA’s Policy and Procedures Manual.




                                                 35
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                             (Continued)


2013-4: Need to Periodically Reconcile Capital Assets to the General Ledger

Condition:
We noted that inventory of capital assets in Afghanistan was not reconciled to the general ledger.
VEGA performed a reconciliation for the purpose of this audit and noted that $11,778 of capital assets
had not been properly recorded into the general ledger.


Cause:
VEGA was unaware that a reconciliation should be performed periodically.


Criteria:
Cooperative Agreement No. 58-3148-1-042, Attachment A, Section II, Title to and Care of Property,
states in part:

       “…2. VEGA shall prepare and establish a program, for the receipt, use, maintenance,
       protection, custody, and care of equipment, materials and supplies for which it has
       custodial responsibility including establishment of reasonable controls to enforce such a
       program….”

Additionally, OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations, Subpart C, Paragraph __.21, Standards for financial management system, states
in part:

       “(b) Recipients' financial management systems shall provide for the following…

       (3) Effective control over and accountability for all funds, property and other assets.
       Recipients shall adequately safeguard all such assets and assure they are used solely
       for authorized purposes…”

Furthermore, The Committee of Sponsoring Organizations of the Treadway Commission (COSO),
Internal Control – Integrated Framework, Chapter 4, Control Activities, states, in part:

       “ Physical Controls – Equipment, inventories, securities, cash and other assets are
       secured physically, and periodically counted and compared with amounts shown on
       control records.”




                                                  36
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                        Findings and Responses

                                              (Continued)


2013-4: Need to Periodically Reconcile Capital Assets to the General Ledger (Continued)

Effect:
Lack of a timely reconciliation of capital assets to the general ledger can result in the loss or
unauthorized disposition of assets without management’s knowledge.


Recommendation:
We recommend that VEGA implement procedures to reconcile the inventory of capital assets to the
financial records on a periodic basis.


Management Response:
IESC, as the lead implementing firm, purchased more than $1.2M in capital assets and personal
property during the program life. It should be noted that physical inspection of the inventory records did
not yield any findings. The field staff has placed program inventory tags on all personal property that
should be tagged and has kept a record of all the pertinent required information. The approved work
plan involves upgrading the MAIL and DAIL offices with computers and other office hardware to enable
the locations to effectively work and communicate. The field staff had coded certain items in the
computer supplies category, such as toner, to an account code that was not meant to contain
consumable office supplies but rather computer personal property. The items, such as toner, did not
have an inventory tag and therefore were a reconciling difference between the two schedules. IESC
has put in place a more frequent reconciliation to its process to ensure this issue does not occur in the
future. Inventory reconciliations will be done every June and December.




                                                   37
                    VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                              Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                             (Continued)


2013-5: Need to Consistently Review the Excluded Parties List

Condition:
Out of the 8 subcontractors tested for excluded parties, VEGA did not perform an excluded parties
check for 3 of the subcontractors. We reviewed the excluded parties list for these 3 subcontractors and
determined that they were not on the list.


Cause:
This condition occurred due to an oversight of management.


Criteria:
Code of Federal Regulations 2 CFR 215.13, Debarment and suspension, states:

       “Federal awarding agencies and recipients shall comply with Federal agency regulations
       implementing E.O.s 12549 and 12689, “Debarment and Suspension.” Under those
       regulations, certain parties who are debarred, suspended or otherwise excluded may not
       be participants or principals in Federal assistance awards and subawards, and in certain
       contracts under those awards and subawards.”

Additionally, Cooperative Agreement No. 58-3148-1-042, Attachment A, Section Z, VEGA
Responsibility for Making and Monitoring Subawards, states in part:

       “1. VEGA shall make subawards only to responsible subrecipients who possess the
       potential ability to perform successfully under the terms of proposed agreement….
       Awards shall not be made to firms or individuals whose name appears on the “List of
       Parties Excluded from Federal Procurement and Nonprocurement Programs”. Available
       online at www.EPLS.gov.”


Effect:
By not checking the List of Parties Excluded from Federal Procurement and Nonprocurement
Programs, Federal funds might be paid to a vendor that is debarred, suspended, or otherwise
prohibited from receiving Federal funds.


Recommendation:
VEGA should review all vendors to ensure they do not appear on the List of Parties Excluded from
Federal Procurement and Nonprocurement Programs.




                                                  38
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                                         Findings and Responses

                                               (Continued)


2013-5: Need to Consistently Review the Excluded Parties List (Continued)

Management Response:
IESC has a Contractor Management System that it utilizes to process and complete the contractor
transactions. A component of this system verifies the eligibility of the contractor to work on US
Government awards. In the system, there is a field that is populated when the search on eligibility is
completed. The current Vice President of Finance, Jason Jaecksch, is responsible for this search. In
the case of the CBCMP program, he confirms that the search was completed as required by the
system, however the field was not populated to document the search. As noted by the auditors, none
of the firms were identified as ineligible. One component of this facilitation is to verify with SAM (System
for Award Management) that during the selection process all contractors are eligible to work on US
Government awards. IESC has since hired a Director of Contracts and Compliance to facilitate the
subcontractor process and documentation and to ensure that the process is completed in compliance
with our systems and policies.




                                                    39
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                                Financial Audit of Costs Incurred under
                               Cooperative Agreement No. 58-3148-1-042

                                        Findings and Responses

                                               (Continued)


2013-6: Need to Document Subrecipient Monitoring

Condition:
Program and financial personnel from VEGA and IESC made numerous trips to Afghanistan during the
period audited. Explanations for these trips were that they were undertaken to monitor the
subrecipients. However, these trips were not supported by monitoring or status reports that described
the purpose of the trip and the benefit to the Agreement.


Cause:
Management indicated that since there were periodic discussions with USDA regarding the progress of
the program, status and/or monitoring reports were not deemed necessary.


Criteria:
Cooperative Agreement No. 58-3148-1-042, Attachment A, Section Z, VEGA Responsibility for Making
and Monitoring Subawards, states in part:

       “…3. VEGA shall monitor its subawards and contracts in compliance with the
       requirements for subrecipient monitoring as contained in 31 USC 7502(f)(2)(B) (Single
       Audit Act Amendments of 1996 (Pub. L. No. 104-156)), OMB Circular A-133 as codified
       at 7 CFR Part 3052, and OMB Circular A-110 as codified at 7 CFR Part 3019.”

Additionally, OMB Circular A-133, Part 3, Compliance Requirements, Section M, Subrecipient
Monitoring, states, in part:

       “…A pass-through entity is responsible for…

       During-the-Award Monitoring – Monitoring the subrecipient‘s use of Federal awards
       through reporting, site visits, regular contact, or other means to provide reasonable
       assurance that the subrecipient administers Federal awards in compliance with laws,
       regulations, and the provisions of contracts or grant agreements and that performance
       goals are achieved...”


Effect:
Failure to prepare a report of its monitoring of subrecipients could result in lack of adequate monitoring,
untimely reporting of problems for correction, and/or trips charged to the Cooperative Agreement that
are unrelated to the program.




                                                    40
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                              (Continued)


2013-6: Need to Document Subrecipient Monitoring (Continued)

Recommendation:
We recommend that VEGA document its monitoring efforts of its subrecipients by preparing and
maintaining site visit reports as evidence that it met its monitoring requirements.


Management Response:
USDA has offered to provide a retroactive approval for the VEGA CFO’s March 2011 and May 2012
trips to Afghanistan, having recalled that these trips had been coordinated and approved verbally. The
purpose of the March 2011 trip can also be found in the budget notes of the CBCMP budget which
mandated the CFO’s regular oversight visits and which had been previously approved by USDA.
VEGA has revised its travel policy to include the requirement for trip reports and it has been
incorporated it into VEGA’s Employee Policy and Procedures Manual.

IESC Headquarter staff traveled to Afghanistan on targeted, well-announced and approved trips for
program activities. IESC documentation supports that USDA was made aware of the trips prior to the
trips being taken. Trip reports have not been required under IESC’s travel policies, however we have
required their submission on programs in the past. IESC is in the process of updating its travel policies
and will include the requirement in the policies that trip reports be submitted by all staff members
moving forward to document the purpose, activities, and outcomes of the trip.




                                                   41
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                        Findings and Responses

                                               (Continued)


2013-7: Ballpark Fee Refund Should be Addressed in the Final Indirect Cost Rate Calculation

Condition:
Our review of the calendar year (CY) 2011 indirect cost pool disclosed that a ballpark fee related refund
of $46,400, which was originally paid in CYs 2009 and 2010, was received and deposited in CY 2011.
This action correctly reduced the CY 2011 indirect cost pool by $46,400 to compensate for
overpayment of the same amount in CYs 2009 and 2010. . However, VEGA, when calculating its CY
2011 indirect rate, had added back $46,400 to the CY 2011 indirect cost pool and as a result,
overstated its CY 2011 indirect rate.


Cause:
The ballpark fee was a new fee that VEGA paid in 2009 and 2010 and protested its payment. VEGA
recorded the refund as a reduction of expenses in 2011, then erroneously added the refund back as
part of its 2011 indirect cost rate calculation.


Criteria:
The District of Columbia Official Code, Sec. 2, Section 47-2761(6) states, in part:

       “…(B)(i) A feepayer shall not include an entity or a successor entity which paid a
       ballpark fee for the fiscal years beginning October 1, 2004 through and including
       October 1, 2009, if such entity paid substantially all of its gross receipts to organizations
       which are tax-exempt pursuant to section 501(c)(3) of the Internal Revenue Code of
       1986…”

Additionally, 48 CFR Section 31.205-41, Taxes, states, in part:

       “…(b) The following types of costs are not allowable:…

       (3) Taxes from which exemptions are available to the contractor directly...”




                                                    42
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                       Findings and Responses

                                              (Continued)


2013-7: Ballpark Fee Refund Should be Addressed in the Final Indirect Cost Rate Calculation
(Continued)

Effect:
The indirect cost rate for CYs 2009, 2010 and 2011 was overstated. Vega initially correctly reduced CY
2011 indirect cost pool to compensate for payment of ineligible ballpark fee payments in CYs 2009 and
2010. However, when finalizing its CY 2011 indirect rate VEGA incorrectly added back $46,400 to its
indirect cost pool thereby overstating its CY 2011 indirect rate.. This resulted in the overstatement of
indirect costs for CYs 2009, 2010 and 2011.


Recommendation:
   (1) We recommend that VEGA contact USAID to discuss refund of the ballpark fee issue and ask
       USAID to reduce the CY 2012 indirect cost pool by $46,400 when finalizing the CY 2012 final
       indirect rate.

   (2)   We recommend that VEGA inform USDA of the results of any changes in the indirect cost rate
         as approved by USAID so that USDA can determine if there is any additional impact to this
         Agreement.


Management Response:
Prior to being awarded this Cooperative Agreement by USDA, VEGA was required to pay a Ball Park
Tax in fiscal year 2009 and 2010, while its appeal for exemption was under review by the DC tax
authority. VEGA won its appeal and was issued tax refund in 2011 for the cumulative payments it
made in 2009 and 2010.

Regardless, the impact of these payments and cumulative credit was specifically excluded from
VEGA’s indirect cost pool in 2009, 2010, and 2011. The details of the NICRA calculation for theses
three years has been reviewed and approved by USAID. VEGA stands by its rebuttal that there is no
discrepancy to be remedied related to its treatment of the Ball Park Tax.


Rebuttal to Management Response:
Our review of the calculation of VEGA’s indirect cost pool determined that the Ballpark fee is being
added to the general and administrative (G&A) indirect cost pool, which is incorrect. In addition, the
indirect cost calculations for 2009 and 2010 indicated that the Ballpark fee was included in the indirect
cost pool. Our recommendation remains unchanged.




                                                   43
                                                                                         APPENDIX A
                     VOLUNTEERS FOR ECONOMIC GROWTH ALLIANCE

                               Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 58-3148-1-042

                                     VEGA Response to Findings

                       For the Period November 24, 2010 to December 31, 2012


Included on the following pages is VEGA’s response received to the findings identified in this report. In
addition to the narrative response, VEGA provided documentation that, in its opinion, supports its
position on various findings. Due to the voluminous and proprietary nature of this documentation, it has
not been included within this report. The documentation has been provided to SIGAR under separate
cover.




                                                   44
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




45
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




46
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




47
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




48
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




49
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




5
50
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




51
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




52
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




53
         ✁   ✁   ✂   ✄   ☎   ✆   ✝    




54
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
